No.

fflmtrf ni i\\t ^forfeit jifafes
Robert Grundstein Esq.
vs
Vermont Board of Bar Examiners

On Petition for Writ of Certiorari to the Vermont State Supreme Court

CERTIFICATE OF SERVICE
I declare under penalty of perjury that the foregoing is true and correct: that on
~
2,*-*/
. I have served this PETITION FOR WRIT OF CERTIORARI,
APPENDIX, and CERTIFICATE OF COMPLIANCE WITH PAGE LIMITS on
counsel of record for Respondent, Joshua Diamond Esq., at the addresses below:

Joshua Diamond
109 State Street
Montpelier, VT 05609
Joshua.Diamond@vermont.gov/802-595-8397

dstein
Robert H. Grundstein Esq.
18 Griggs Road
Morrisville, Vermont 05661
rgrunds@pshift.com/802-397-8839

